No. 20-1379

 

 

IN THE

Supreme Court of the United States

SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY,

Petitioner,
v.

CENTER FOR INVESTIGATIVE REPORTING,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,917 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 21, 2021.

Colin Casey tle

Wilson-Epes Printing Co., Inc.
